                                   OFFICE OF INVESTIGATIONS

                          CLOSEOUT MEMORANDUM




There was no closeout written at the time this case was closed. The following information was
extracted from the file in conformance with standard closeout documents.

Our office was informed that the subject' (a contractor) allegedly attempted to remove government
property. The subject was terminated.

Accordingly this case is closed.




                                                                                                    I




                                                                                                        I
                                                                                                        I
